HHS/OIG, Audit -"Audit of Nursing Facility Staffing Requirements at Mariner Health of Denver,"(A-07-03-04022)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Nursing Facility Staffing Requirements at Mariner Health of Denver," (A-07-03-04022)
December 3, 2003
Complete
Text of Report is available in PDF format (276 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Mariner Health of Denver (Mariner) was in compliance with Federal
and State staffing laws and regulations for nursing facilities.  Mariner is a 117 bed nursing facility located in
Denver, Colorado.  Mariner complied with Federal and State staffing laws and regulations with one exception.  Colorado
regulations require facilities to provide annual in-service education for staff in certain critical areas including rehabilitation.  However,
even though Mariners corporate office had developed a training seminar for rehabilitative services, the facility did not
provide its nursing staff with rehabilitative nursing training on an annual basis.  We recommended that Mariner review
its annual in-service training program to assure that all mandated State required training is included for all staff.